Cardmember
Agreement
CARDMEMBER AGREEMENT
This Cardmember Agreement (“Agreement”), which includes your Card carrier
and Welcome Letter, is your contract with us and governs the use of your Card
and Account. The Welcome Letter contains important account information,
including your annual percentage rates. Please read and keep these documents
for your records.
You agree to use your Account in accordance with this Agreement. This
Agreement is binding on you unless you have not used or authorized
use of the Card. You must pay us for all amounts due on your Account
as specified in this Agreement. Your Account must only be used for
lawful transactions.
DEFINITIONS
We, us, and our: TMG Financial Services, Inc., the issuer of your credit
Card Account.
You, your, and yours: the person who applied to open the Account and any other
person responsible for complying with this Agreement, including the person to
whom we address the billing statements.
Account: the relationship established between you and us by this Agreement.
APR: annual percentage rate.
Balance Transfer: the transfer of outstanding balances by you to your Account
from credit accounts issued by persons other than us. A Balance Transfer may
only be completed in a method authorized by us, which may include through a
check issued by us.
Card: one or more Cards or other Account access devices, including Convenience
Checks and Account numbers that we issue to you to obtain credit under this
Cardmember Agreement.
Cash Advance: an advance that is charged to your Account with or in connection
with the Card, including obtaining funds through an automated teller machine
(ATM), banking site or financial institution; making a wire transfer; obtaining a
money order, traveler’s check, lottery ticket, casino chip or similar item; writing
a Check, drawn on your Account, to yourself or as cash; or engaging in a
similar transaction.
Convenience Check(s): a draft that looks like other checks, but is issued by us and
drawn on credit available in your Account. For purposes of this Agreement and
other communications with you, we may refer to these as Convenience Checks,
Balance Transfer checks, Balance Consolidation checks, or by other means as
described in offers or communications to you.
Purchase: a Purchase is the use of your Card or Account to buy or lease products
or services. The Purchase of cash or cash equivalents, like casino chips or lottery
tickets, is a Cash Advance, not a Purchase.
TRANSACTION FEES – FINANCE CHARGES
Transaction Fees and APRs: If you are assessed a transaction fee for a Purchase
made in a foreign currency or a Cash Advance, the transaction fee may cause the
APR on your billing statement on which the transaction first appears to exceed
your normal APR.
Annual Fee: None.
Balance Transfer Fee: None.
Foreign Transaction Fee: When you make a transaction outside of the United
States, a fee equal to 1% of the converted transaction amount will be applied to
your Account, unless state law limits the amount we can charge, in which case
the fee shall be the largest amount allowable under state law. State law limits
include, but are not limited to: No fee for CO; Up to $0.25 for NV; Up to the lesser
of 1% or $10.00 for IN.
The foreign transaction fee is a finance charge. Interest does not accrue on
the fee.
Cash Advance Fee: If you use your Account or Card to obtain a Cash Advance,
we will charge a Cash Advance fee of the greater of 4% of the cash advance or

02/17
CMA-2

ATIRAcredit™ Mastercard®
$10.00, unless state law limits the amount we can charge, in which case the fee
shall be the largest amount allowable under state law. State law limits include,
but are not limited to: Up to $0.25 for IL and NV; Up to the lesser of 1.5% of
amount of each cash advance or $5.00 for WV; Up to the greater of $2.00 or 2%
of advance for TX; Up to the lesser of 2% of amount or $10.00 for IN; Up to the
greater of 2.5% of amount advanced or $2.00 for CO; Up to 4% of advance for LA;
Up to the greater of $10.00 or 4% of each cash advance ($30.00 maximum)
for MN.
The cash advance fee is a finance charge. Interest does not accrue on the fee.
OTHER FEES
Some fees vary by state and are disclosed below. Specific fee amounts that apply
to your Account will be disclosed as part of your Welcome Letter.
Late Payment Fee: We may add a late fee as outlined below to your Account for
each billing period you fail to pay the Minimum Amount Due by the Payment
Due Date (unless otherwise limited by state law). No fee for CT; Up to 5% of past
due amount after 7 days for VA; Up to 5% of past due payment after 10 days for
NY; Up to the greater of 5% of unpaid amount or $10.00 after 10 days for WY; Up
to 5% of unpaid installment, not to exceed $10.00 after 15 days for ME; Up to
5% of unpaid installment, not to exceed $25.00 after 10 days for WV; Up to the
lesser of $5.00 or the balance on balances under $100 or $10.00 for balances
over $100 after 30 days for NC; Up to the greater of $5.00 or 4% of amount of
any delinquency after 15 days for MS; Up to $7.00 for CA; Up to the greater of
$7.20 or 5% of unpaid payment after 10 days, not to exceed $18.00 in SC; Up
to the greater of $7.80 or 5% of amount of the payment after 10 days for MN;
Up to 10% of payment amount after 10 days for WA; Up to the lesser of 10% of
outstanding balance or $10.00 after 15 days in default for MA; Up to the greater
of 5% of installment or $15.00 after 7 days for KY; Up to $15.00 after 10 days for
CO, DC, FL and LA; Up to the lesser of 5% of payment due or $15.00 after 10 days
for TX; Up to the greater of 5% of minimum required payment or $15.00 after
10 days for OH and ID; Up to the greater of 5% of minimum payment or $15.00
after 15 days for MO; Up to the greater of $15.00 or 5% of amount past due for
MI and MT; Up to $15.00 for IA; Up to the greater of $18.00 or 5% of payment in
default after 10 days in AL; Up to $18.50 after 10 days for IN; Up to the greater of
$20.00 or 10% of payment after 15 days in PA; Up to the greater of $24.50 or 5%
of payment after 10 days for OK; Up to $25.00 for AA, AE, AK, AP, AR, AZ, DE, GA,
HI, IL, KS, MD, ND, NE, NH, NJ, NM, NV, OR, RI, SD, TN, UT, VI, VT and WI.
Returned Payment Fee: We may add a fee as outlined below to your Account
if a payment check or similar instrument is not honored or returned because it
cannot be processed, or if an automatic debit is returned unpaid. We may assess
this fee every time your check or payment is not honored, as permitted by law.
No fee for WY; Up to $10.00 for NV; Up to $15.00 after 2nd presentment for MD;
Up to $20.00 for CT, FL, ID, NY, OH and OR; Up to the greater of $20.00 or 5% of
amount due for IA; Up to $25.00 if check remains unpaid for 15 days after notice
of dishonor is sent for MS; Up to $25.00 for AA, AE, AK, AL, AP, AR, AZ, CA, CO,
DC, DE, HI, IL, IN, KS, KY, LA, MA, ME, MI, MN, MO, MT, NC, ND, NE, NH, NJ, NM,
OK, PA, RI, SC, SD, TN, TX, UT, VA, VI, VT, WA, WI and WV; Up to $25.00 or 5% of
check amount for GA.
Returned Convenience Check Fee: We may add a fee if we decline to honor a
convenience check. We may decline to honor these checks if, for example, the
amount of the check would cause the balance to exceed the Cash Advance limit
or revolving credit line, if you default, if you did not comply with our instructions
regarding the check, or if your Account has been closed. We may assess this fee
every time your check is not honored, as permitted by law. No fee for WY; Up to
$10.00 for NV; Up to $15.00 after 2nd presentment for MD; Up to $20.00 for CT,
FL, ID, NY, OH and OR; Up to the greater of $20.00 or 5% of amount due for IA;
Up to $25.00 if check remains unpaid for 15 days after notice of dishonor is sent
for MS; Up to $25.00 for AA, AE, AK, AL, AP, AR, AZ, CA, CO, DC, DE, HI, IL, IN, KS,
KY, LA, MA, ME, MI, MN, MO, MT, NC, ND, NE, NH, NJ, NM, OK, PA, RI, SC, SD, TN,
TX, UT, VA, VI, VT, WA, WI and WV; Up to $25.00 or 5% of check amount for GA.
Stop Payment on Convenience Check Fee: We may add a fee of up to $20.00 to
your Account if we honor your request to stop payment on a Convenience Check.
To stop payment on a Convenience Check, write us at ATIRAcredit, P.O. Box
14542, Des Moines, Iowa, 50306-3542, or call the Cardmember Service number
on the billing statement. If you call, you must confirm the call in writing within

fourteen (14) days. A written stop payment order remains in effect for six (6)
months unless renewed in writing. Stop payment fees do not apply for the state
of WY.
Credit Card Replacement Fee: We may add a fee to your Account if you request
a replacement credit Card. This fee is based on the delivery type you request.
The fee is $5.00 for standard delivery; $25.00 if you request a replacement be
delivered two (2) days after your request; $65.00 if you request a non-emergency
delivery shipped via FedEx one (1) day after your request; or $105.00 if you
request an emergency Card replacement which is shipped at time of request
when it is sent via an overnight delivery service. Rush card fees do not apply to
the following states: OK and WY.
Rush PIN Fee: We may add a $10.00 fee to the Purchase balance if you request
your PIN rush-delivered to you via FedEx. Rush PIN fees do not apply to the
following states: OK and WY.
Document Copy Fee: We may add a $15.00 fee to your Account if you request a
copy of a sales slip, refund slip, Cash Advance slip or travel and entertainment (T
& E) draft. Document copy fees do not apply to the following states: IN, OK
and WY.
Convenience Check Copy Fee: We may add a $20.00 fee to your Account if you
request a copy of a returned Convenience Check. Convenience Check copy fees
do not apply to the following states: OK and WY.
Statement Copy Fee: We may add a $5.00 fee to your Account if you request a
copy of a billing statement. Statement Copy fees do not apply to the following
states: OK and WY.
Research Fee: We may add a fee to your Account for time we spend to research
an item regarding your Account at your request. The fee is $15.00 per hour.
Research fees do not apply to the following states: OK and WY.
YOUR ACCOUNT
Authorized Users: You may allow authorized users to use your Account. You may
request additional Cards for authorized users. You must pay us for all charges
made by authorized users, even if you did not intend to be responsible for those
charges. If you revoke permission for an authorized user to use a Card or to use
your Account, you must notify us for the revocation to be effective.
Revolving Credit Line: Your initial revolving credit line appears on the Card carrier
and your Welcome Letter. Part of your revolving credit line, called the Cash
Advance limit, is available for Cash Advances. Your Cash Advance limit appears on
your Welcome Letter. We may change your revolving credit line or Cash Advance
limit at any time for any reason. We may notify you of any change, but the
change may take effect before you receive notice. We may permit you to incur
charges that cause your New Balance to exceed your revolving credit line. These
charges will be evaluated based on account performance, information contained
on credit bureau reports we review periodically and other credit accounts
with us. If we authorize these charges, you must pay, as part of your Minimum
Payment Due, the amount by which your New Balance exceeds your revolving
credit line, including amounts due to Purchases, Cash Advances, finance charges,
fees or other charges.
Contact Information: You must notify Cardmember Service of a change in
address or other contact information, including state of residence, by calling
888.4.ATIRA.1 (888.428.4721), mailing ATIRAcredit, P.O. Box 14542, Des Moines,
IA 50306-3542 or emailing info@ATIRAcredit.com. (Please note: this email
address is not secure; please do not include your account information. To discuss
account-specific information, please call Cardmember Service.)
Billing Statement: You shall receive a periodic billing statement in accordance
with applicable law if your Account has a debit or credit balance of more than
$1 or a finance charge has been imposed during that billing cycle. If we deem
your Account uncollectible or institute collection proceedings through an outside
agency or attorney, we may stop sending you statements. Periodic finance
charges and fees may continue to accrue even if we stop sending statements.
The total amount you owe us appears as the New Balance on the billing
statement. To determine the New Balance we begin with the total balance at
the start of the billing period. We add any Purchases, Balance Transfers or Cash
Advances and subtract any credits or payments credited as of that billing period.
We then add any periodic finance charges or fees and make other adjustments.
Our Communications With You: If we need to contact you to service your
Account or to collect amounts you owe, you authorize us (and our affiliates,
agents and contractors) to contact you at any number you provide, from which
you call us or at which we believe we can reach you. We may contact you in any
way, such as calling or texting. We may contact you using an automated dialer
or prerecorded messages. We may contact you on a mobile, wireless or similar
device, even if you are charged for it.

APRs
APRs Based on Prime: We calculate any APR based on the U.S. Prime Rate
(“Prime Rate”) by adding a margin to the Prime Rate. Your margin is identified in
the Welcome Letter you receive from us. Your APRs are variable and may increase
or decrease if the Prime Rate increases or decreases. For each billing period, we
use the Prime Rate published in The Wall Street Journal ten (10) business days
prior to your statement closing date. If The Wall Street Journal does not publish
the Prime Rate, we may substitute a similar published rate. A change in the APR
due to a change in the Prime Rate takes effect as of the first day of the billing
period for which we calculate the APR. We apply the new applicable APR to any
existing balances, subject to any promotional rates that may apply.
Effect of APR Increases: If the APR on your Account increases in accordance with
this Agreement and as permitted by law, interest charges and your minimum
payment may increase.
Penalty Rate: We do not charge a penalty rate.
FINANCE CHARGES
Interest Charges: Interest charges are a finance charge added to your Account
when we apply the applicable APR to the balances on your Account.
When Interest Charges Begin to Accrue: Interest begins to accrue on Purchases,
Cash Advances, Balance Transfers, and any minimum interest charges from the
date it is added to the daily balance and continues to accrue until payment in full
is credited to your Account.
Your Payment Due Date is at least 25 days after the close of each billing cycle.
We will not charge you interest on Purchases or Balance Transfers that appear
on your billing statement if you pay the New Balance on your statement in full by
the Payment Due Date.
For a Cash Advance, we will begin charging interest on the transaction date.
How We Calculate Your Balance and Interest Charges: We calculate the
interest charge separately for each Balance Subject to Interest rate, including
for Purchases at the current rate (which includes Balance Transfers at the
current rate), Cash Advances at the current rate and transactions at different
promotional rates, as applicable. Your billing statement shows each Balance
Subject to Interest Rate.
We figure the interest charge on your Account by applying the periodic rate to
the “average daily balance” of Purchases (which include Balance Transfers) and
Cash Advances. The average daily balances for Purchases (including Balance
Transfers) and Cash Advances are calculated separately and determined as
follows: To get the “average daily balance” we take the beginning balance of
your Account for each Balance Subject to Interest Rate each day, add any new
transactions in that category (which may include Purchases / Balance Transfers
/ Cash Advances) and subtract any unpaid interest or other finance charges and
any payments or credits. This gives us the daily balance. Then, we add up all
the daily balances (for that Balance Subject to Interest Rate) for the billing cycle
and divide the total by the number of days in the billing cycle. This gives us the
“average daily balance” for each Balance Subject to Interest Rate.
For each Balance Subject to Interest Rate, we multiply the average daily balance
by the applicable periodic rate. The periodic rate referenced in your Welcome
Letter is a ‘monthly’ periodic rate and is calculated by dividing the APR on the
Account by twelve (12). A billing period begins on the day after the Statement
Closing Date of the previous billing period and includes the Statement Closing
Date of the current billing period
Minimum Interest Charge: If you are charged interest, the charge will be no less
than $0.50.
Convenience Checks: Each Convenience Check must be in the form it was issued
and used according to any instructions we give. The Convenience Check(s)
must not be used to pay an amount owed us under this or any other account
or agreement that you have with us. We do not certify Convenience Checks
or return any such checks that have been paid. At our sole discretion, we may
choose to honor a Convenience Check after its expiration date.
PAYMENTS
Minimum Payment Due: Each month your statement balance is greater than
$0, you must pay at least the Minimum Payment Due by the Payment Due Date.
To calculate the Minimum Payment Due, we begin with any past due amount
and add any amount in excess of your revolving credit line. We then apply the
minimum payment disclosed in your Welcome Letter.
The Minimum Payment Due never exceeds the New Balance. In calculating the
Minimum Payment Due, we may subtract from
the New Balance certain fees added to your Account during the billing period.
Application of Payments: Each billing period, to the extent your payment
exceeds the Minimum Payment Due shown on your current billing statement,
we will apply the excess amount to the balance of each transaction category

beginning with the balance subject to the highest APR. Otherwise, we will apply
payments and credits at our discretion. In all cases, we will apply payments and
credit in accordance with applicable law.
Payment Instructions: Payments are credited in accordance with the payment
instructions on the billing statement. Payments received in proper form online, at
your financial institution or at our processing facility by 5 p.m. local time on any
day will be credited as of that day. Payments received online, at your financial
institution or at our processing facility after 5 p.m. local time will be credited as
of the next day. You must pay us in U.S. dollars using a check, similar instrument
or automatic debit that is drawn on and honored by a financial institution in the
U.S. Do not send cash. We can accept late or partial payments, and payments
that reflect “paid in full” or other restrictive endorsements, without losing our
rights. We reserve the right to accept payments made in foreign currency and
instruments drawn on funds on deposit outside the U.S. If we do, we select the
currency conversion rate at our discretion and credit your Account in U.S. dollars
after deducting any costs incurred in processing your payment, or we may bill
you separately for such costs.
Foreign Currency Conversion Procedures: If you make a transaction in a foreign
currency, other than a Cash Advance made at your financial institution or ATM
of one of our affiliates, Mastercard® converts the amount into U.S. dollars as
follows: Mastercard complies with its foreign currency conversion procedures
then in effect. Mastercard currently uses a conversion rate in effect one day prior
to its transaction processing date. Such a rate is either a wholesale market rate or
the government mandated rate.
The foreign currency conversion rate in effect on the applicable processing date
for a transaction may differ from the rate in effect on the Transaction or Post
Date on your billing statement for that transaction.
If a transaction is converted by a third party prior to such transaction being
processed by Mastercard, the foreign currency conversion rate for that
transaction will be the rate selected by that third party.
CREDIT REPORTING
We may report information about your Account to credit reporting agencies.
Late payments, missed payments or other defaults on your Account may appear
on your credit report. If you request Cards on your Account for others, we may
report account information in the names of those other people as well. We may
also obtain subsequent credit reports on you (for example, when we review your
Account for a revolving credit line increase). If you wish to know which agencies
we contacted, write us at the Cardmember Service address on your billing statement.
If you think we reported erroneous information to a credit reporting agency,
write us at the Cardmember Service address on your billing statement. We
will promptly investigate the matter and if we agree with you, we will contact
each credit reporting agency to which we reported and request a correction.
If, after our investigation, we disagree with you, we will tell you in writing or by
telephone how to submit a statement to those agencies for inclusion in your
credit report.
CHANGES TO THIS AGREEMENT
We may change the rates, fees and terms of this Agreement at any time for any
reason, as permitted by law. Further, we may be compelled to change the rates,
fees and terms of this Agreement if you change your state of residence. We will
provide you notice of changes as required by law. Any changes to this Agreement
are binding on you.
DEFAULT
You will be in default under this Agreement if you fail to pay the Minimum
Payment Due by its due date; pay by a check or similar instrument that is
not honored or that we must return because it cannot be processed; pay by
automatic debit that is returned unpaid; make any false or misleading statements
in any credit application or credit update; file for bankruptcy; or die. You will also
be in default if you fail to comply with the terms of this Agreement or any other
Agreement you have with us. If you default, we may close your Account and
require you to pay any unpaid balance immediately, subject to applicable law. If
you gave the financial institution guaranteeing your Account a security interest or
other deposit, we may use the deposit amount to pay any
amount you owe.
AUTHORIZATIONS, CLOSED ACCOUNTS
AND RELATED PROVISIONS
Authorizations: We do not guarantee authorization of a transaction, either by
us or by a third party, even if you have sufficient credit available. We reserve
the right to deny certain transactions for any reason and at our sole discretion,
including for default, suspected fraudulent or unlawful activity, internet gambling
or any indication of increased risk related to the transaction or the Account.
You agree that we will not be liable for failing to give an authorization. We also
reserve the right to limit the number of transactions that may be approved in
one day. If we detect unusual or suspicious activity, we may suspend your credit
privileges until we can verify the activity, or we may close the Account.

Preauthorized Charges: If you default, if the Card is lost or stolen or we change
the Account for any reason, we may suspend automatic charges with third party
vendors. If preauthorized charges are suspended, you are responsible for making
direct payment for such charges until you contact the third party to reinstate the
automatic charges.
Lost or Stolen Cards, Account Numbers or Convenience Checks: If any Card,
Account number or Convenience Check is lost or stolen or if you think someone
used or may use them without permission, call Cardmember Service immediately
at 888.4.ATIRA.1. We may require you to provide certain information in writing
to help us find out what happened and to comply with our investigation. You
must identify for us the charges that were not made by you, or someone not
authorized by you and from which you received no benefit. You will not be liable
for any unauthorized use that occurs after your notify us. You may be liable for
unauthorized use that occurs before your notice to us. However, if you exercise
reasonable care in safeguarding your card from risk of loss or theft and, upon
discovering the loss or theft promptly report the loss or theft to us, you will not
be liable for any unauthorized transactions. In any case, your liability will not
exceed $50.00.
Closing Your Account: You may close your Account by notifying us in writing or
calling the Cardmember Service number shown on your billing statement or on
the back of your credit Card but must still repay the total balance remaining on
the Account (identified as “New Balance” on your statement) in accordance with
this Agreement. We may close your Account or suspend Account privileges at any
time for any reason without prior notice. We may also reissue a different Card at
any time. You must return any Card to us upon request.
Security Interest for Secured Accounts: If your Account is a secured account,
you gave your financial institution a security interest or other deposit to secure
payment of your Account. If you withdraw your funds from the account set up
to secure your credit account, the financial institution will notify us and we will
close your Account.
WHAT TO DO IF THERE IS AN ERROR IN YOUR BILL
Your Billing Rights: Keep This Document For Future Use
This notice tells you about your rights and our responsibilities under the Fair
Credit Billing Act.
What To Do If You Find A Mistake On Your Statement
If you think there is an error on your statement, write to us at:
ATIRAcredit, P.O. Box 14542, Des Moines, IA 50306-3542.
In your letter, give us the following information:
• Account information: Your name and Account number.
• Dollar amount: The dollar amount of the suspected error.
• Description of problem: If you think there is an error on your bill, describe
what you believe is wrong and why you believe it is
a mistake.
You must contact us:
• Within 60 days after the error appeared on your statement.
• At least 3 business days before an automated payment is scheduled, if you
want to stop payment on the amount you think is wrong.
You must notify us of any potential errors in writing. You may call us, but if you do
we are not required to investigate any potential errors and you may have to pay
the amount in question.
What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell you that we received your
letter. We will also tell you if we have already corrected the error.
2. Within 90 days of receiving your letter, we must either correct the error or
explain to you why we believe the bill is correct.
While we investigate whether or not there has been an error:
• We cannot try to collect the amount in question, or report you as delinquent
on that amount.
• The charge in question may remain on your statement, and we may continue to
charge you interest on that amount.
• While you do not have to pay the amount in question, you are responsible for
the remainder of your balance.
• We can apply any unpaid amount against your credit limit.
After we finish our investigation, one of two things will happen:
• If we made a mistake: You will not have to pay the amount in question or any
interest or other fees related to that amount.
• If we do not believe there was a mistake: You will have to pay the amount
in question, along with applicable interest and fees. We will send you a
statement of the amount you owe and the date payment is due. We may then
report you as delinquent if you do not pay the amount we think you owe.
If you receive our explanation but still believe your bill is wrong, you must write

to us within 10 days telling us that you still refuse to pay. If you do so, we
cannot report you as delinquent without also reporting that you are questioning
your bill. We must tell you the name of anyone to whom we reported you as
delinquent, and we must let those organizations know when the matter has
been settled between us.

Applicants: 1) may, after credit approval, use the credit card account up to its
credit limit; 2) may be liable for amounts extended under the plan to any joint
applicant. As required by law, you are hereby notified that a negative credit
report reflecting on your credit record may be submitted to a credit reporting
agency if you fail to fulfill the terms of your credit obligations.

If we do not follow all of the rules above, you do not have to pay the first $50.00
of the amount you question even if your bill is correct.

Connecticut Residents: This is an open-end loan being made pursuant to
Connecticut Statutes Sections 36a-555 to 573.

Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If you are dissatisfied with the goods or services that you have purchased with
your credit Card and you have tried in good faith to correct the problem with
the merchant, you may have the right not to pay the remaining amount due on
the Purchase.

Florida Residents: You (borrower) agree that, should we obtain a judgment
against you, a portion of your disposable earnings may be attached or
garnished (paid to us by your employer), as provided by Florida and
Federal law.

To use this right, all of the following must be true:
1. The Purchase must have been made in your home state or within 100 miles
of your current mailing address, and the Purchase price must have been
more than $50.00. (Note: Neither of these are necessary if your Purchase was
based on an advertisement we mailed to you, or if we own the company that
sold you the goods or services.)
2. You must have used your credit Card for the Purchase. Purchases made with
Cash Advances from an ATM or with a check that accesses your Account do
not qualify.
3. You must not yet have fully paid for the Purchase.

Missouri Residents: Oral agreements or commitments to loan money, extend
credit or to forbear from enforcing repayment of a debt including promises to
extend or renew such debt are not enforceable. To protect you (borrower(s))
and us (creditor) from misunderstanding or disappointment, any agreements
we reach covering such matters are contained in this writing, which is the
complete and exclusive statement of the agreement between us, except as we
may later agree in writing to modify it.

If all of the criteria above are met and you are still dissatisfied with
the Purchase, contact us in writing at ATIRAcredit, P.O. Box 14542,
Des Moines, IA 50306-3542.

New York Residents: We may obtain a credit report in connection with
this Account, including for any review, modification, renewal or collections
associated with this Account. Upon your request, you will be informed whether
such report was requested and, if so, the name and address of the consumer
reporting agency furnishing the report. New York residents may contact the New
York State Banking Department at 877.226.5697 to obtain a comparative listing
of credit card rates, fees and grace periods.

While we investigate, the same rules apply to the disputed amount as discussed
above. After we finish our investigation, we will tell you our decision. At that
point, if we think you owe an amount and you do not pay, we may report you
as delinquent.

Ohio Residents: The Ohio laws against discrimination require that all creditors
make credit equally available to all creditworthy customers and that credit
reporting agencies maintain separate credit histories on each individual upon
request. The Ohio Civil Rights Commission administers compliance with this law.

DISPUTE RESOLUTION
Any dispute, controversy or claim arising under or otherwise in connection with
this Agreement (including any breach, termination, validity or enforceability of
any provision hereof) (a “Dispute”) shall be resolved as follows: Either Party may
submit the Dispute to non-binding mediation in the State of Iowa, in accordance
with the Rules of Arbitration then prevailing of the American Arbitration
Association (the “Rules”). The Parties will mutually agree upon the mediator.
If the Parties are unable to agree upon the mediator, the mediator will be
selected by the Des Moines, Iowa office of the American Arbitration Association.
If the Dispute is not resolved through mediation within ten (10) business days
after the conclusion of the Hearing (as defined below), the Dispute may be
submitted to arbitration in Des Moines, Iowa for resolution by final and binding
arbitration by a sole arbitrator under the Rules, upon written notice of demand
for arbitration by the Party seeking arbitration, setting forth the specifics of the
matter in controversy or the claim being made.

South Dakota Residents: If you believe there have been any improprieties in
making this loan or in the lender’s loan practices, you may contact the South
Dakota Division of Banking at
1601 N. Harrison Ave, Suite 1, Pierre, SD 57501, or by phone
at 605.773.3421.
Wisconsin Residents: If you are married, please contact us immediately upon
receipt of this Agreement at 888.4.ATIRA.1 and provide us with the name and
address of your spouse. We are required to inform your spouse that we have
opened a credit account for you.
FOR FURTHER INFORMATION
Call Cardmember Service at 888.4.ATIRA.1. This number is also shown on your
billing statement and on the back of your Card.

“Hearing” means a hearing before the mediator during which each Party
presents its position regarding the Dispute.
APPLICABLE LAW AND ENFORCING OUR RIGHTS
Applicable Law: The terms and enforcement of this Agreement shall be
governed by federal law and the law of Iowa.
Armed Forces: Federal law provides important protections to members of the
Armed Forces and their dependents relating to extensions of consumer credit.
In general, the cost of consumer credit to a member of the Armed Forces and
his or her dependent may not exceed an annual percentage rate of 36 percent.
This rate must include, as applicable to the credit transaction or account: The
costs associated with credit insurance premiums; fees for ancillary products sold
in connection with the credit transaction; any application fee charged (other
than certain application fees for specified credit transactions or accounts); and
any participation fee charged (other than certain participation fees for a credit
card account). To hear this disclosure orally, please call 844.697.2550.
Enforcing this Agreement: We can delay in enforcing or fail to enforce any of
our rights under this Agreement without losing them.
Collection Costs: If we refer collection of your Account to a lawyer who is not
our salaried employee, you are liable for any reasonable attorney’s fees we
incur, plus the costs and expenses of any legal action, to the extent applicable
by law.
Assignment: We may assign any or all of our rights and obligations under this
Agreement to a third party.
California Residents: A married applicant may apply for a separate account.

The ATIRAcredit™ Card is issued pursuant to a license by Mastercard
International Incorporated. Mastercard and the Mastercard Brand Mark are
registered trademarks of Mastercard International Incorporated.
©2017, TMG Financial Services, Inc. ATIRA® is a registered service mark
and ATIRAcredit™ is a service mark of The Members Group, LLC.

